No. ____________
IN THE SUPREME COURT OF THE UNITED STATES

BRYAN MITCHELL LIETZAU,
Petitioner,
vs.
STATE OF ARIZONA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE ARIZONA SUPREME COURT
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
DAVID J. EUCHNER
Counsel of Record
ABIGAIL JENSEN
Pima County Public Defender’s Office
33 N. Stone, 21st Floor
Tucson, Arizona 85701
Telephone: (520) 724-6800
David.Euchner@pima.gov
Abigail.Jensen @pima.gov
Attorneys for Petitioner
Bryan Mitchell Lietzau

INDEX TO APPENDIX
Exhibit 1: State v. Lietzau, 439 P.3d 839 (Ariz. Ct. App. 2019)............ 001
Exhibit 2: State v. Lietzau, 463 P.3d 200 (Ariz. 2020) (as amended) ... 012
Exhibit 3: Order of Arizona Supreme Court denying
reconsideration and amending opinion, June 12, 2020 ...... 024
Exhibit 4: Motion for Reconsideration, June 8, 2020 ............................ 028
Exhibit 5: Original opinion of Arizona Supreme Court, May 22,
2020
...................................................... 035
Exhibit 6: Motion to Suppress Cell Phone Evidence with
Attachments, filed Nov. 27, 2017 ......................................... 047
Exhibit 7: State’s Response to Motion to Suppress Evidence with
Attachments
...................................................... 110
Exhibit 8: Transcript of Trial Court Ruling on Motion to Suppress
Evidence, Dec. 11, 2017 ...................................................... 134

EXHIBIT 1
State v. Lietzau, 439 P.3d
839 (Ariz. Ct. App. 2019)

001

IN THE

ARIZONA COURT OF APPEALS
DIVISION TWO

THE STATE OF ARIZONA,
Appellant,
v.
BRYAN MITCHELL LIETZAU,
Appellee.
No. 2 CA-CR 2018-0011
Filed March 25, 2019
Appeal from the Superior Court in Pima County
No. CR20162952001
The Honorable Howard Fell, Judge Pro Tempore
REVERSED AND REMANDED

COUNSEL
Barbara LaWall, Pima County Attorney
By Jacob R. Lines, Deputy County Attorney, Tucson
Counsel for Appellant
Joel Feinman, Pima County Public Defender
By Abigail Jensen and Abigail Okrent, Assistant Public Defenders, Tucson
Counsel for Appellee

002

STATE v. LIETZAU
Opinion of the Court
OPINION
Judge Espinosa authored the opinion of the Court, in which
Presiding Judge Eppich and Chief Judge Eckerstrom concurred.
E S P I N O S A, Judge:
¶1
The state appeals the trial court’s suppression of evidence
taken from Bryan Lietzau’s cell phone, arguing the court erred in denying
its request to present testimony from Lietzau’s probation officer at the
suppression hearing and in granting Lietzau’s motion to suppress. For the
following reasons, we reverse and remand.
Factual and Procedural Background
¶2
“We discuss only those facts relevant to the suppression
ruling challenged on appeal,” State v. Navarro, 241 Ariz. 19, ¶ 2 (App. 2016),
viewing them “in the light most favorable to sustaining the trial court’s
ruling,” State v. Gonzalez, 235 Ariz. 212, ¶ 2 (App. 2014). Because no
testimony was taken at the suppression hearing under review, we draw the
facts from the record of the hearing, including the materials appended to
the motions, and non-disputed facts presented in the parties’ briefs.1 See
Navarro, 241 Ariz. 19, n.1.
¶3
In August 2014, Lietzau was placed on probation for
aggravated harassment. In accordance with the terms of his written
conditions of supervised probation, Lietzau agreed to submit to “search
and seizure of person and property” by the Adult Probation Department
“without a search warrant.” He also agreed to grant safe access to his
residence and property, submit to searches and seizures of “person and
property by any probation officer,” and provide probation officers with
truthful answers to inquiries.
¶4
In early December 2014, a woman contacted Lietzau’s
probation officer to report “an inappropriate relationship” she believed
Lietzau was having with her thirteen-year-old daughter, S.E. A few weeks
later, a probation surveillance officer arrested Lietzau for violating
1At

the hearing, the state repeatedly asked that Lietzau’s probation
officer be permitted to testify, but the trial court declined its request, stating
it had read the parties’ “responses,” and did not “need any testimony.”

2

003

STATE v. LIETZAU
Opinion of the Court
conditions of his probation based on his failure to provide access to his
residence, participate in counseling programs, comply with drug testing,
and perform community restitution. On the way to the jail, the surveillance
officer examined Lietzau’s cell phone and saw numerous text messages
between Lietzau and S.E. The probation department reported these
findings to the Tucson Police Department (“TPD”); a police detective then
obtained a search warrant2 and discovered incriminating photos and text
messages in the phone. Lietzau was subsequently indicted on charges of
sexual conduct with a minor.
¶5
Lietzau filed a motion to suppress all evidence gleaned from
his cell phone, citing Riley v. California, 573 U.S. 373 (2014), and arguing the
initial search violated his Fourth Amendment rights because warrants “are
required for searches of cell phones incident to arrest.” He also contended,
in the alternative, that the search was unreasonable under the totality of the
circumstances, citing State v. Adair, 241 Ariz. 58 (2016). The state countered
that no constitutional violation occurs when a warrantless search is
expressly authorized in a probationer’s terms of probation, and maintained
that the search of Lietzau’s phone fell within the scope of the search
conditions in his probation orders, and therefore was “within the probation
search exception to the warrant requirement.” The state further argued that
Riley was “inapposite” because the defendants there were not on probation,
and the search here was in compliance with Adair. The trial court granted
Lietzau’s motion to suppress, reasoning that the surveillance officer’s
search of the phone had not been related to Lietzau’s “administrative”
violations of probation, and was therefore “arbitrary,” and impermissible.
The state appealed; we have jurisdiction pursuant to A.R.S.
§§ 12-120.21(A)(1) and 13-4032(6).
Discussion
¶6
The state contends the trial court erred by suppressing the cell
phone evidence because the surveillance officer’s examination of Lietzau’s
phone “was reasonable,” and therefore “constitutional” under Adair. It also
2 The

warrant application stated that S.E.’s mother was aware her
minor daughter was “possibly sexually active” with an adult, impliedly
identified as Lietzau, S.E. had told a doctor she had been sexually active
with a twenty-one-year-old male “on previous occasions,” and the
probation department had informed TPD they had reviewed Lietzau’s cell
phone and found “information on that phone that pertained to that
relationship.”

3

004

STATE v. LIETZAU
Opinion of the Court
suggests the search was consensual pursuant to Lietzau’s conditions of
probation, in which he “agreed and acknowledged” that his personal
property could be searched without a warrant. We review a trial court’s
ruling on a motion to suppress for abuse of discretion, Adair, 241 Ariz. 58,
¶ 9, but review de novo the court’s ultimate legal determination whether
the search complied with the Fourth Amendment, State v. Davolt, 207 Ariz.
191, ¶ 21 (2004).
¶7
The United States and Arizona Constitutions protect against
unreasonable searches and seizures, U.S. Const. amend. IV; Ariz. Const.
art. II, § 8, and a search conducted without a warrant is presumed
unreasonable, absent certain exceptions to this rule, State v. Gant, 216 Ariz.
1, ¶ 8 (2007). A search incident to arrest is one such exception, see Davis v.
United States, 564 U.S. 229, 234-35 (2011), which the United States Supreme
Court justified because of “the need to seize weapons and other things
which might be used to assault an officer or effect an escape, as well as by
the need to prevent the destruction of evidence of the crime,” Chimel v.
California, 395 U.S. 752, 764 (1969). The exception, however, does not extend
to the search of data contained on cell phones. Riley, 573 U.S. at 386. In
Riley, the Court recognized the significant information stored on cell phones
that “implicate privacy concerns far beyond those implicated by the search
of a cigarette pack, a wallet, or a purse.” Id. at 393. Thus, a warrant is
generally required before a cell phone is searched, even if the search is
incident to arrest. Id. at 401; see also State v. Peoples, 240 Ariz. 244, ¶ 13 (2016)
(“[C]ell phones contain ‘the privacies of life’ and are therefore worthy of
Fourth Amendment protection.” (quoting Riley, 573 U.S. at 403)).
¶8
Here, the trial court considered Riley because the surveillance
officer searched Lietzau’s cell phone a short time after arresting him for
probation violations, but correctly noted that Riley did not “deal with the
issue of when someone’s on probation, and they’ve agreed to allow the
Probation Department to search their property.” The court then considered
United States v. Lara, a Ninth Circuit case reversing the denial of a
suppression motion based on a warrantless and suspicionless search of a
probationer’s cell phone, in part because his terms of probation did not
clearly encompass such a search. 815 F.3d 605, 607, 610, 614 (9th Cir. 2016).
The trial court lastly discussed Adair and concluded the search of Lietzau’s
phone was improper. The state contends the court erroneously relied on
Lara because it is significantly distinguishable from Lietzau’s case, and, in
any event, not binding on Arizona courts, and argues the court misapplied
Adair.

4

005

STATE v. LIETZAU
Opinion of the Court
Probationary Search
¶9
Our supreme court has held that when a defendant is on
probation, “his expectations of privacy are less than those of other citizens
not so categorized.” State v. Montgomery, 115 Ariz. 583, 584 (1977). More
recently in Adair, the court described a probationer’s privacy interests as
“significantly diminished.” 241 Ariz. 58, ¶ 23 (quoting United States v.
Knights, 534 U.S. 112, 121 (2001)). The court then balanced those interests
against the state’s substantial interests in public safety and reducing
recidivism and, rejecting the argument that some level of founded
suspicion was required to conduct a warrantless search, held that a “search
of [a] residence pursuant to the probation conditions complied with the
Fourth Amendment if it was reasonable under the totality of the
circumstances.” Id. ¶¶ 15-23. The court went on to identify factors to
consider when determining the reasonableness of a search. Id. ¶ 25. For
example, as this court had previously noted, “[t]he target of the search must
be a known probationer subject to a valid, enforceable probation condition
allowing a warrantless search,” “[t]he search must be conducted by a
probation officer in a proper manner and for the proper purpose of
determining whether the probationer was complying with probation
obligations,” and “the search must not be arbitrary, capricious[,] or
harassing.” Id. (quoting State v. Adair, 238 Ariz. 193, ¶ 21 (App. 2015)).
Other factors bearing on reasonableness include
the nature and severity of the probationer’s
prior conviction(s) for which he is on probation;
the content and scope of the probation
conditions; the nature and severity of the
suspected criminal offenses or probation
violations giving rise to the search; whether the
suspected crimes or violations are the same as
or similar to the crimes of which the probationer
was previously convicted; and the nature,
source, and plausibility of any extraneous
information supporting the search.
Id. The trial court here cited these factors and concluded the search was
unreasonable, finding it “arbitrary” and therefore in violation of Lietzau’s
constitutional rights. As stated earlier, we review its legal conclusion de
novo. Davolt, 207 Ariz. 191, ¶ 21.
¶10
At the outset, we note that the facts of Lietzau’s case may be
viewed as falling somewhere on a spectrum between Lara, to the extent that

5

006

STATE v. LIETZAU
Opinion of the Court
case may be persuasive, and Adair, the binding precedent of our supreme
court. As in Lara, the search here involved a cell phone and its data, for
which the Supreme Court has afforded heightened protection. See Riley,
573 U.S. at 403 (“Modern cell phones are not just another technological
convenience. With all they contain and all they may reveal, they hold for
many Americans ‘the privacies of life.’” (quoting Boyd v. United States, 116
U.S. 616, 630 (1886))). And while the search terms of Lietzau’s probation
broadly include “property,” Lietzau argues they do not expressly or
unambiguously include a cell phone. See Lara, 815 F.3d at 610 (terms of
probation, “including any residence, premises, container or vehicle” under
defendant’s control did not “clearly or unambiguously encompass”
defendant’s cell phone).
¶11
Looking to Adair, however, Lietzau was under active
probation supervision and subject to a valid, enforceable condition of his
probation expressly authorizing warrantless searches by probation officers.
Adair, 241 Ariz. 58, ¶ 12; see Knights, 534 U.S. at 121 (warrantless search
upheld where authorized by terms of probation and new offense
suspected). And, unlike Lara, but as in Adair, the search here was not
without suspicion.
Importantly, the probation department had a
reasonable ground to suspect Lietzau might be engaged in an improper
relationship with a minor, a serious offense and one that would be a patent
violation of his probation. See A.R.S. § 13-1405(B) (sexual conduct with a
minor under fifteen is a class two felony). Additionally, given the nature of
S.E.’s mother’s complaints, there was reason to investigate whether
Lietzau’s cell phone might contain evidence corroborating her report.
Contrary to the trial court’s conclusion, the totality of circumstances, as
more specifically detailed below, clearly tip towards a finding of
reasonableness under Adair.
Application of Adair
¶12
First, Lietzau was on felony probation, and his probation
officer had been contacted by an identified individual whose only
motivation was that of a mother concerned for her child’s safety. She
specifically named Lietzau, obviously known to her as a criminal offender,
and indicated she had reason to believe he was inappropriately involved
with her thirteen-year-old daughter. Indeed, she contacted the probation
department on more than one occasion, including the arresting surveillance
officer, to voice her fears. The probation department thus had a wellfounded, non-arbitrary reason to suspect Lietzau of committing another
felony while on probation, rather than “[m]ere speculation,” as urged by
Lietzau. While Lietzau asserts the probation department “had no
6

007

STATE v. LIETZAU
Opinion of the Court
information to indicate that the inappropriate nature of that relationship
was criminal or otherwise violated [his] conditions of probation,” it is well
established that reasonable suspicion is not negated by possibilities of
innocent conduct. See State v. Evans, 237 Ariz. 231, ¶ 11 (2015) (to justify
suspicion, officer need not rule out the possibility of innocent explanations
for conduct); State v. Teagle, 217 Ariz. 17, ¶ 49 (App. 2007) (reasonable
suspicion is based on particularized and objective facts, not hard
certainties).
¶13
Although there was no testimony about the arresting officer’s
motivation in searching Lietzau’s phone after the trial court declined to hear
the state’s probation department witness, and Lietzau argues the state
failed to make an offer of proof and thereby waived this issue, the motions
before the court at that time contained such evidence, including the
transcribed interview of the surveillance officer. See State v. Treadaway, 116
Ariz. 163, 168 (1977) (offer of proof not necessary when substance of
potential testimony apparent); see also State v. Keener, 110 Ariz. 462, 465
(1974) (hearsay generally admissible in suppression hearing); Ariz. R. Evid.
104(a) (trial court not bound by the Arizona Rules of Evidence in
suppression hearing). The arresting officer expressly stated in his interview
that he was aware of the allegations made by S.E.’s mother; in fact, he had
spoken with her himself. And even had that not been the case, it would be
of little moment because cumulative police information and knowledge are
attributed to an arresting officer. See State v. Lawson, 144 Ariz. 547, 553
(1985) (arresting officer need not “personally be in possession of all the
facts” so long as collective knowledge of all officers sufficient); State v.
Keener, 206 Ariz. 29, ¶ 14 (App. 2003); see also United States v. Sutton, 794 F.2d
1415, 1426-27 (9th Cir. 1986) (suspicion justified by collective information
known by officers).
¶14
Second, cell phones are “ubiquitous” repositories of
communications and photos “for a variety of purposes,” State v. Tucker, 231
Ariz. 125, ¶ 17 (App. 2012), and “[e]ven the most basic phones . . . hold
photographs, picture messages, [and] text messages.” Riley, 573 U.S. at 394.
The use of these pervasive devices to convey communications of a sexual
nature is well known, particularly involving older children and young
adults. See, e.g., State v. Ortiz, 238 Ariz. 329, ¶¶ 1, 24 (App. 2015) (defendant
convicted of sexual conduct with a minor; “‘flirtatious’ text messages” to
victim evidence of “grooming” for purposes of child abuse); State v. Villegas,
227 Ariz. 344 (App. 2011) (conviction for luring minor for sexual
exploitation arising from text messages and e-mail with police posing as
fourteen-year-old girl); United States v. Brackett, 846 F.3d 987 (8th Cir. 2017)
(child pornography conviction where minor sent sexually explicit
7

008

STATE v. LIETZAU
Opinion of the Court
photographs to defendant via cell phone); Miller v. Skumanick, 605 F. Supp.
2d 634, 637 (M.D. Pa. 2009) (practice of sending sexually suggestive text
messages and images via cell phone “widespread among American
teenagers”); State v. Thomas, 966 N.E.2d 939, ¶ 5 (Ohio Ct. App. 2011)
(upholding conviction based on “sexually explicit electronic messages” to
minors and their “tak[ing] sexually explicit photographs of themselves
and . . . send[ing] those photographs to [defendant’s] cell phone”); State v.
Carey-Martin, 430 P.3d 98, 112 (Or. Ct. App. 2018) (“sending sexually
explicit self-portraits” via cell phone “common among teenagers”); see also
Elizabeth M. Ryan, Note, Sexting: How the State Can Prevent a Moment of
Indiscretion from Leading to a Lifetime of Unintended Consequences for Minors
and Young Adults, 96 Iowa L. Rev. 357, 360 (2010) (conveying “sexually
suggestive text messages and images” via cell phone is a “social
phenomenon among minors and young adults”); Oxford University Press,
Word of the Year 2009, https://en.oxforddictionaries.com/word-of-theyear/word-of-the-year-2009%20 (last visited Jan. 31, 2019) (recognizing the
term “sexting” as “the sending of sexually explicit texts and pictures” by
cell phone).
¶15
Third, although the court in Lara determined that “property”
does not “unambiguously include cell phone data” when read with
specifically enumerated categories of property in defendant Lara’s terms of
probation, that particular scenario does not exist here. 815 F.3d at 611. And,
other courts have held to the contrary. See People v. Sandee, 222 Cal.Rptr.3d
858, 864 (Ct. App. 2017) (condition allowing search of “property” and
“personal effects” included cell phone); State v. White, 890 N.W.2d 825, ¶ 13
(N.D. 2017) (probation conditions authorizing officers to search “person,
vehicle or residence” included cell phones found inside residence); see also
United States v. Yuknavich, 419 F.3d 1302, 1311 (11th Cir. 2005) (despite
absence of probation condition authorizing searches, warrantless search of
probationer’s computer upheld). But more importantly, whether or not
similar probation terms in Lara and this case could be viewed as including
cell phones and their data, it is significant that the Lara court implied the
search there would have been valid had the officers possessed reasonable
suspicion.3 815 F.3d at 607, 609-10.

3Thus,

while Lietzau’s probation terms are another factor to consider
under Adair, it is not necessary to reach the issue of whether they constitute
an independent waiver of rights regarding his cell phone or electronic data.
See Knights, 534 U.S. at 117-18 (declining to resolve whether acceptance of

8

009

STATE v. LIETZAU
Opinion of the Court
¶16
Because, unlike in Lara, the search of Lietzau’s cell phone was
supported by reasonable suspicion that he was committing a new offense,
we disagree with the trial court’s conclusion that the search was not
conducted for the proper purpose of determining his compliance with
probation conditions. Adair, 241 Ariz. 58, ¶ 25. An express condition of
Lietzau’s probation was “obeying all laws.” Accordingly, although the
court in Adair listed them as distinct factors, because the search here was
for a proper purpose, we cannot say it was arbitrary, capricious, or
harassing. See id. ¶ 25.
Trial Court’s Findings
¶17
We lastly address Lietzau’s assertions that “the [s]tate failed
to present any evidence” that the search was conducted for a proper
probationary purpose, and “the trial court’s factual findings were fully
supported by the evidence.” The court’s only factual findings, however,
related to the way the search occurred, which was not disputed. In fact, the
court concluded that the search had been conducted in the “proper
manner.” And after repeatedly denying the state’s requests to introduce
testimony, the court said it did not “need any” and went on to focus solely
on the allegations underlying Lietzau’s arrest. As noted earlier, the court
proceeded to discuss case law, primarily Lara and Adair, and then
concluded that the search had “violated [Lietzau’s] constitutional rights,”
in large part because it found the search arbitrary for being unrelated to the
underlying probation violations he was charged with. As already
discussed, however, this conclusion was erroneous. Further, we are aware
of no basis or authority, and Lietzau identifies none, holding that a
probationary search is limited to the confirmation of known or charged
probation violations.
¶18
Indeed, not even founded suspicion for a known or suspected
violation of probation is required if the search of a probationer’s home that
would otherwise raise Fourth Amendment prohibitions is reasonable
under the totality of the circumstances. Adair, 241 Ariz. 58, ¶ 1 (the legality
of a probationary search “does not hinge on whether the search is
supported by reasonable suspicion”); United States v. King, 736 F.3d 805, 806
n.1, 810 (9th Cir. 2013) (rejecting argument that reasonable suspicion was
required to authorize warrantless probationary search). If the search of a
probationer’s cell phone, however, invokes more constitutional protection
probation term authorizing warrantless searches constituted waiver of
Fourth Amendment rights).

9

010

STATE v. LIETZAU
Opinion of the Court
than a search of his home, as argued by Lietzau citing Lara, we are
nevertheless confident in concluding that actual founded suspicion falls
much closer to the governance of Adair and, together with the surrounding
circumstances, justified the warrantless search here. Stated differently, the
Adair reasonableness standard, as applied to a probationer’s cell phone,
must necessarily be informed by facts supporting founded suspicion when
it exists, as in the case at hand.
Conclusion
¶19
Under the totality of the circumstances, including Lietzau’s
significantly diminished privacy rights as a probationer, his acceptance of
search conditions when he agreed to probation which arguably included
his cell phone, the probation department’s well-grounded suspicion that
Lietzau might be involved in a serious offense with an adolescent child, and
the well-known use of cell phones as an aid in committing sexual offenses
against children, it cannot be said the officer’s search of Lietzau’s cell phone
was unreasonable. See Adair, 241 Ariz. 58, ¶ 23. Accordingly, we conclude
the trial court abused its discretion in granting Lietzau’s motion to
suppress.4
Disposition
¶20
Because we have determined the probationary search here
was lawful on the specific facts involved, we reverse the trial court’s order
granting Lietzau’s motion to suppress and remand the case for further
proceedings consistent with this decision.

4Because

we reverse on this ground, we need not address the state’s
additional argument that the trial court erred in not permitting its witness
to testify at the evidentiary hearing.

10

011

EXHIBIT 2
State v. Lietzau, 463 P.3d
200 (Ariz. 2020) (as
amended)

012

IN THE

SUPREME COURT OF THE STATE OF ARIZONA
____________________________________________

STATE OF ARIZONA,
Appellant,
v.
BRYAN MITCHELL LIETZAU,
Appellee.
______________________________________________

No. CR-19-0132-PR
Filed May 22, 2020

______________________________________________

Appeal from the Superior Court in Pima County
CR20162952-001
The Honorable Howard Fell, Judge Pro Tempore
REVERSED AND REMANDED
_________________
Opinion of the Court of Appeals, Division Two
246 Ariz. 380 (App. 2019)
Filed March 25, 2019
VACATED
_________________
COUNSEL:
Barbara LaWall, Pima County Attorney, Jacob R. Lines (argued), Deputy
County Attorney, Tucson, Attorneys for State of Arizona
Joel Feinman, Pima County Public Defender, David J. Euchner (argued),
Abigail Jensen, Deputy Public Defenders, Tucson, Attorneys for Bryan
Mitchell Lietzau
Mikel Steinfeld (argued), Phoenix, Attorney for Amicus Curiae Arizona
Attorneys for Criminal Justice

013

STATE V. LIETZAU
Opinion of the Court
____________________
VICE CHIEF JUSTICE TIMMER authored the Opinion of the Court, in
which CHIEF JUSTICE BRUTINEL, and JUSTICES BOLICK, GOULD,
LOPEZ, BEENE, and MONTGOMERY joined.
____________________
VICE CHIEF JUSTICE TIMMER, Opinion of the Court:
¶1
Cell phones provide access to an immense array of private
information, much of which is stored in the Cloud or on sites controlled by
third parties. As such, the United States Supreme Court concluded in Riley
v. California that people have uniquely broad expectations of privacy in cell
phones and, therefore, a warrant is generally required to search them. 573
U.S. 373, 393–94, 401 (2014). In the wake of Riley, we are asked to decide
whether Arizona’s standard conditions of probation, which permit
warrantless searches of a probationer’s “property,” apply to cell phones.
We hold they do. We further hold that the search here was reasonable
under the totality of the circumstances and therefore compliant with the
Fourth Amendment.
BACKGROUND
¶2
In August 2014, the superior court entered judgment against
Bryan Lietzau for the crime of aggravated harassment, a domestic violence
offense and a class 6 undesignated felony. The court suspended imposition
of a prison sentence on Lietzau and placed him on supervised probation for
eighteen months. In return, Lietzau agreed to comply with uniform
conditions of supervised probation and separate domestic violence
probation terms, both of which outlined requirements for “leading a lawabiding lifestyle” and cooperating with the adult probation department
(“APD”), among other terms and conditions. Pertinent here, Lietzau
agreed to “submit to search and seizure of person and property by the APD
without a search warrant” (“Condition 4”). 1
¶3
A few months later, G.E. reported to the APD her suspicion
that S.E., her thirteen-year-old daughter, and Lietzau were engaging in an
Similarly, the domestic violence probation terms required Lietzau to
“[s]ubmit to search and seizure of person and property by any probation
officer.”

1

2

014

STATE V. LIETZAU
Opinion of the Court
“inappropriate relationship.” APD surveillance officer Casey Camacho
arrested Lietzau weeks later for violating several conditions of probation
unrelated to S.E.: (1) failing to provide APD safe, unrestricted access to his
residence; (2) failing to participate and cooperate in counseling or assistance
programs as directed; (3) failing to take a drug test as directed; and (4)
failing to perform community restitution. En route to jail, Camacho looked
through text messages on Lietzau’s cell phone and discovered numerous
incriminating messages and photos between Lietzau and S.E. Camacho
typed out the messages and gave his transcription and the cell phone to
police. The State subsequently indicted Lietzau on six counts of sexual
conduct with a minor.
¶4
Lietzau moved to suppress all evidence gathered as a result
of Camacho’s cell phone search, arguing the search violated his state and
federal constitutional rights to be free from unreasonable searches and
seizures. The State responded that Condition 4 justified Camacho’s
warrantless search because a cell phone is “property.” Both parties
provided evidence supporting their positions, including a transcription of
defense counsel’s interview of Camacho. After conducting a nonevidentiary hearing, the court granted the motion.
¶5
The court first reviewed the holdings in Riley and United States
v. Lara, 815 F.3d 605 (9th Cir. 2016), both of which addressed the unique
privacy implications attendant to cell phone searches. The court then
applied factors listed in State v. Adair, 241 Ariz. 58, 64 ¶¶ 23–25 (2016), to
determine whether the search was reasonable under the totality of the
circumstances, and thus constitutionally permissible. The court ultimately
found that the search was unreasonable because Condition 4 was not
sufficiently broad to permit the search, Camacho had no proper purpose in
searching the phone, the search was arbitrary, and the alleged probation
violations involved only “administrative kinds of things.”
¶6
The court of appeals reversed. State v. Lietzau, 246 Ariz. 380,
381 ¶ 1 (App. 2019). After applying the Adair factors, it found that the
search was reasonable. Id. at 384 ¶ 11. Unlike the superior court, the court
of appeals relied heavily on the fact that at the time of Lietzau’s arrest, the
APD and Camacho had been told about the suspected, inappropriate
relationship between Lietzau and S.E. Id. This allegation, according to the
court, gave the APD “a well-founded, non-arbitrary reason to suspect
Lietzau of committing another felony while on probation.” Id. ¶¶ 11–12.
The court also found that the term “property” in Condition 4 included a cell
3

015

STATE V. LIETZAU
Opinion of the Court
phone, and that cell phones are “‘ubiquitous’ repositories of
communications and photos” that may reveal an inappropriate relationship
with a minor. Id. at 385–86 ¶¶ 14–15. Under the totality of these
circumstances, the court concluded that Camacho’s search of the cell phone
was reasonable, and that the trial court erred by granting the motion to
suppress. Id. at 386 ¶ 19.
¶7
We granted Lietzau’s petition for review to resolve issues of
statewide importance that are likely to recur.
DISCUSSION
¶8
We review the trial court’s suppression order for an abuse of
discretion. See State v. Peoples, 240 Ariz. 244, 247 ¶ 7 (2016). In doing so, we
consider only the evidence presented at the suppression hearing and view
that evidence in a light most favorable to upholding the court’s ruling. Id.
An error of law constitutes an abuse of discretion. Id.
I. Cell phones as “property” under Condition 4
¶9
Lietzau argues the court of appeals erred by finding that
“property” in Condition 4 includes cell phones. He does not dispute that a
cell phone constitutes “property” under the plain meaning of the word. See
Property, Black’s Law Dictionary (11th ed. 2019) (defining “property” as
“the rights in a valued resource such as land, chattel, or an intangible”).
Rather, he relies on the Supreme Court’s decision in Riley to argue that the
term “property” in Condition 4 necessarily excludes cell phones.
¶10
The Court in Riley recognized that cell phones are
“minicomputers” that hold “a digital record of nearly every aspect of
[people’s] lives—from the mundane to the intimate” and are thus unlike the
types of property carried in one place by people living before the digital
age. Riley, 573 U.S. at 393–95. As such, the Court concluded that a warrant
is generally required to search a cell phone, and such devices are not subject
to the search incident to arrest exception to the Fourth Amendment’s
warrant requirement. Id. at 401–03; see also Peoples, 240 Ariz. at 248–49
¶¶ 11–16 (discussing Riley).
¶11
Lietzau argues that after Riley, just as a warrant is generally
required to search an arrestee’s cell phone, a warrant is generally required
to search a probationer’s cell phone. Because the trial court was
4

016

STATE V. LIETZAU
Opinion of the Court
presumptively aware of Riley before placing Lietzau on probation, and the
court could not impose an illegal condition, he asserts that Condition 4
necessarily excludes cell phones from its reach. Cf. Polk v. Hancock, 237 Ariz.
125, 129 ¶ 10 (2015) (concluding the trial court erred by imposing illegal
probation term despite the defendant’s agreement because “parties cannot
confer authority on the court that the law proscribes”).
¶12
We disagree that Riley prohibits probation conditions
authorizing warrantless searches of cell phones. Simply put, the Court did
not address that issue. Conversely, it has recognized that supervising
probationers “permit[s] a degree of impingement upon privacy that would
not be constitutional if applied to the public at large” to “assure that the
probation serves as a period of genuine rehabilitation and that the
community is not harmed by the probationer’s being at large.” Griffin v.
Wisconsin, 483 U.S. 868, 875 (1987). To that end, it has found that “a court
granting probation may impose reasonable conditions that deprive the
offender of some freedoms enjoyed by law-abiding citizens,” including a
condition requiring the probationer to “[s]ubmit his . . . person, property,
place of residence, vehicle [and] personal effects” to a warrantless search.
United States v. Knights, 534 U.S. 112, 114, 119 (2001); see also State v.
Montgomery, 115 Ariz. 583, 584 (1977) (“[A] probationer who has been
granted the privilege of probation on condition that he submit at any time
to a warrantless search may have no reasonable expectation of traditional
Fourth Amendment protection.” (quoting People v. Mason, 488 P.2d 630, 633
(Cal. 1971)). Nothing in Riley suggests that the substantial privacy concerns
attendant to warrantless cell phone searches of arrestees, who have not
been convicted of a crime, foreclose warrantless searches of probationers’
cell phones pursuant to a probation condition, assuming the search is
otherwise reasonable. See Griffin, 483 U.S. at 873, 876 (requiring a
warrantless search of a probationer’s home to be “reasonable” to comply
with the Fourth Amendment).
¶13
Lara, relied on by the trial court, does not persuade us to
exclude cell phones from the reach of Condition 4. Lara’s probation
conditions authorized warrantless, suspicionless searches of his “person
and property, including any residence, premises, container or vehicle under
[his] control.” Lara, 815 F.3d at 607. Probation officers searched text
messages on Lara’s phone and found evidence ultimately leading to a
criminal conviction. Id. at 608. The Ninth Circuit held that the district court
erred by not suppressing that evidence because the cell phone search was
unreasonable under the circumstances. Id. at 612, 614. Significantly, for our
5

017

STATE V. LIETZAU
Opinion of the Court
purposes, the court concluded that the word “property” in Lara’s probation
conditions did not unambiguously include cell phone data. Id. at 611. It
pointed out that although the examples given in the condition “refer to
physical objects that can be possessed,” cell phone data cannot be physically
possessed and much information accessible through a phone, such as
banking and medical records, are possessed by third parties and are thus
not “under [Lara’s] control” as provided in the condition. Id.
¶14
Lara is distinguishable and, to the extent it is not, we reject its
reasoning. Condition 4 authorizes a warrantless search of Lietzau’s
“property” without qualifying examples, making it broader than the
condition in Lara. Regardless, we disagree with Lara that the inability to
physically possess digital data means it is not property when displayed on
a cell phone. Whether we consider digital data to be merged with the cell
phone displaying it, much like information written on paper, or treat it as
intangible, digital data constitutes “property.” See Property, Black’s Law
Dictionary, supra (including “chattel” and something “intangible” in the
definition of “property”).
¶15
In sum, the plain meaning of “property” in Condition 4
includes a cell phone. Riley does not vary that meaning. The trial court
erred by concluding otherwise.
II.

Reasonableness of the search under the Fourth
Amendment

¶16
Lietzau argues that even if Condition 4 authorized a search of
his cell phone, Camacho’s search was unreasonable because it was
suspicionless and unrelated to the reason for Lietzau’s arrest or his
probation conditions. More specifically, he asserts that the search had
nothing to do with S.E., and the court of appeals “conjured its own factual
findings” to justify the search on that basis. The State responds that the
court of appeals correctly applied the Adair factors to conclude that the
search was reasonable and thus compliant with the Fourth Amendment.
¶17
We have previously found that probation conditions like
Condition 4 are “not an unreasonable or an unconstitutional limitation
upon [a probationer’s] right to be free from unreasonable searches and
seizures.” Montgomery, 115 Ariz. at 584. But we have never held that such
conditions alone are sufficient to make any search of a probationer’s person
or property reasonable under the Fourth Amendment. See Adair, 241 Ariz.
6

018

STATE V. LIETZAU
Opinion of the Court
at 61 ¶ 11 (declining to address the issue). Instead, we have concluded that
this condition diminishes a probationer’s reasonable expectation of privacy
in his person and property. See id. ¶ 12; Montgomery, 115 Ariz. at 584; see
also Knights, 534 U.S. at 119–20. We examine the particular circumstances
of a case to determine whether that diminished expectation, in combination
with other factors, renders a search reasonable under the Fourth
Amendment. See Adair, 241 Ariz. at 62 ¶ 18.
¶18
The most recent case from this Court to address probationary
searches is Adair. There, we considered whether reasonable suspicion was
required to authorize the warrantless search of a probationer’s home. Id. at
60 ¶ 9. After reviewing a trilogy of Supreme Court opinions and balancing
a probationer’s “significantly diminished privacy interests” against the
state’s “substantial” interests in preventing recidivism, protecting the
public, and reintegrating probationers into society, we concluded that a
warrantless probationary search complies with the Fourth Amendment if
the search is reasonable under the totality of the circumstances. Id. at 62–64
¶¶ 19–23.
¶19
The Adair Court identified a non-exhaustive list of factors
relevant to the reasonableness inquiry: (1) whether the “target of the search
[is] a known probationer subject to a valid, enforceable probation condition
allowing a warrantless search”; (2) whether the search is “conducted by a
probation officer in a proper manner and for the proper purpose of
determining whether the probationer was complying with probation
obligations”; (3) whether “the search [is] arbitrary, capricious or harassing”;
(4) “the nature and severity of the probationer’s prior conviction(s) for
which he is on probation”; (5) “the content and scope of the probation
conditions”; (6) “the nature and severity of the suspected criminal offenses
or probation violations giving rise to the search”; (7) “whether the
suspected crimes or violations are the same as or similar to the crimes of
which the probationer was previously convicted”; and (8) “the nature,
source, and plausibility of any extraneous information supporting the
search.” Id. ¶ 25 (citation omitted). Not all factors are relevant in every
case, and they are somewhat overlapping.
¶20
Applying the Adair factors here and viewing the facts in a
light most favorable to upholding the trial court’s ruling, we conclude that
Camacho’s search of Lietzau’s cell phone was reasonable under the totality
of the circumstances.
7

019

STATE V. LIETZAU
Opinion of the Court
¶21
Lietzau was on supervised probation and subject to
Condition 4, which authorized a warrantless search of his “property,”
including his cell phone. As such, Lietzau had a diminished expectation of
privacy in his phone. See Knights, 534 U.S. at 119–20; Adair, 241 Ariz. at 61
¶ 12; Montgomery, 115 Ariz. at 584. Lietzau’s reasonable expectation of
privacy in his cell phone log, e-mails, and text messages was particularly
diminished because he could reasonably expect they would be searched to
determine his compliance with probation conditions, including conditions
forbidding contact with the victim in the domestic violence case and her
family. The search was conducted by a surveillance officer, and nothing
suggests the search was conducted in an improper manner.
¶22
The trial court found, without explanation, that Camacho
lacked a proper purpose for conducting the search and that the search was
arbitrary. During defense counsel’s interview of Camacho, counsel never
asked, and Camacho did not explain, the reason for the search.
Nevertheless, Lietzau argues the search was improper because Camacho
indicated that he searches probationers’ cell phones routinely, and he did
not say he searched Lietzau’s phone because of any suspected wrongdoing
or probation violation. To this end, Lietzau pieces together Camacho’s
assertions that he “go[es] through hundreds of phones a month,” he “didn’t
know one way or the other” whether Lietzau and S.E. text-messaged each
other, and he believed he did not need a warrant because Lietzau was on
probation.
Lietzau’s focus on Camacho’s subjective purpose for
¶23
searching the cell phone is misplaced. The reasonableness of a search turns
on objective criteria and not an officer’s subjective mindset or motivations.
See Kentucky v. King, 563 U.S. 452, 464 (2011) (“[W]e have never held, outside
limited contexts such as an inventory search or administrative inspection
. . . , that an officer’s motive invalidates objectively justifiable behavior
under the Fourth Amendment.” (citation omitted) (internal quotation
marks omitted)); see also State v. Hausner, 230 Ariz. 60, 73 ¶ 39 (2012) (to
same effect). An objective inquiry is consistent with other tests for
reasonableness and promotes “evenhanded law enforcement.” See King,
563 U.S. at 464 (citing Horton v. California, 496 U.S. 128, 138 (1990)). Thus, to
determine whether Camacho searched the cell phone for the proper
purpose of determining whether Lietzau was complying with his probation
obligations, we examine whether the circumstances, viewed objectively,
support such a finding. See Ashcroft v. al-Kidd, 563 U.S. 731, 736 (2011)
(“Fourth Amendment reasonableness is predominantly an objective
8

020

STATE V. LIETZAU
Opinion of the Court
inquiry . . . [that asks] whether the circumstances, viewed objectively,
justify [the challenged] action.” (citations omitted) (quotation marks
omitted)).
¶24
Camacho, as the assigned surveillance officer, properly
monitored Lietzau’s compliance with probation conditions to assist the
APD’s efforts to simultaneously rehabilitate Lietzau and protect the
domestic violence victim and society from future crimes. Cf. Knights, 534
U.S. at 119–21 (describing the goals for probation as rehabilitation,
protecting society from future criminal violations, and integrating the
probationer back into the community); see also Montgomery, 115 Ariz. at 584
(noting that probation conditions “aid in the rehabilitation process or prove
a reasonable alternative to incarceration as punishment for the crime
committed”); Ariz. R. Crim. P. 27.1(b) (stating a “court may impose
conditions on a probationer that promote rehabilitation and protect any
victim”). One probation condition required Lietzau to “maintain a crimefree lifestyle by obeying all laws, and not engaging or participating in any
criminal activity.” At the time of the search, the APD and Camacho had
been informed by G.E. on more than one occasion that Lietzau, a twentytwo-year-old man, was suspected of engaging in an “inappropriate
relationship” with S.E., a thirteen-year-old girl, which Camacho reasonably
understood to mean a sexual relationship. If G.E.’s suspicions were correct,
Lietzau was committing serious criminal offenses that not only violated his
probation conditions but victimized S.E.
As the court of appeals observed, text-messaging about sexual
¶25
relationships is commonly done among teens and young adults. See Lietzau,
246 Ariz. at 385 ¶ 14; see also Elizabeth M. Ryan, Sexting: How the State Can
Prevent a Moment of Indiscretion from Leading to a Lifetime of Unintended
Consequences for Minors and Young Adults, 96 Iowa L. Rev. 357, 360 (2010)
(observing that sending “sexually suggestive text messages and images”
via cell phone is a “social phenomenon among minors and young adults”).
Determining whether Lietzau’s text messages revealed a sexual
relationship with S.E. directly related to his compliance with probation
conditions, his rehabilitation, and the APD’s efforts to protect the public
from future crimes. Thus, Camacho had an objectively proper purpose for
searching those messages, even if that was not his subjective motivation.
See Adair, 241 Ariz. at 66 ¶ 32 (upholding probationary search that “directly
related” to the requirement that the probationer obey all laws and not
possess illegal drugs).
9

021

STATE V. LIETZAU
Opinion of the Court
¶26
Even absent evidence that Lietzau and S.E. were engaging in
a suspected sexual relationship, Camacho had an objectively proper
purpose for searching the cell phone messages to ensure Lietzau’s
compliance with probation conditions. Lietzau was prohibited from
contacting the domestic violence victim and her family as a condition of
probation. Checking Lietzau’s cell phone text messages to determine
whether he was obeying the non-contact condition constituted a proper
purpose for the search. Cf. Griffin, 483 U.S. at 875 (stating that “probation
serves as a period of genuine rehabilitation and [assures] that the
community is not harmed by the probationer’s being at large,” and “[t]hese
same goals require and justify the exercise of supervision to assure that the
restrictions are in fact observed”). Camacho did not have to suspect that
Lietzau had violated the non-contact condition to perform a cursory search
of the messages, both ensuring compliance and deterring future violations.
Cf. id. at 876 (analogizing a probation officer to a parent who acts with “the
welfare of the probationer” in mind and citing an officer’s need to maximize
“the deterrent effect” offered by expeditious searches).
Lietzau was also required to provide the APD access to his
¶27
residence, participate in counseling and drug testing, and perform
community restitution, all of which he failed to do within months after
being placed on probation. The trial court characterized these probation
violations as “administrative kinds of things” and implied they played no
part in determining whether Camacho’s search was reasonable. We
disagree. These conditions were imposed to rehabilitate Lietzau while
ensuring he did not pose a danger to society. By skipping counseling and
evading drug testing, Lietzau presented a presumptive threat for
reoffending, thus endangering the community. He simultaneously
prevented the ADP from fully assessing the level of that threat and
potentially enhancing its rehabilitative efforts by cutting off access to his
residence. Under these circumstances, checking the cell phone messages to
determine whether he was reoffending or otherwise posing a public threat
reasonably furthered the goals of rehabilitation and public protection. See
Samson v. California, 547 U.S. 843, 854 (2006) (observing that a probationer’s
incentive to conceal criminality “justifie[s] an ‘intensive’ system” for
supervision (citing Griffin, 483 U.S. at 875)).
¶28
We disagree with the trial court that the search was arbitrary.
A search is arbitrary, capricious, or harassing if it is “conducted for reasons
unrelated to the rehabilitative and reformative purposes of probation or
other legitimate law enforcement purposes.” People v. Bravo, 738 P.2d 336,
10

022

STATE V. LIETZAU
Opinion of the Court
342 (Cal. 1987). Most often, determining whether a search was conducted
for a proper purpose will resolve whether the search was arbitrary,
capricious, or harassing. But a search directly related to a probation
condition can nevertheless be arbitrary, capricious, or harassing if, for
example, “motivated by personal animosity” or conducted “too often, or at
an unreasonable hour, or if unreasonably prolonged or for other reasons
establishing arbitrary or oppressive conduct by the searching officer.”
People v. Reyes, 968 P.2d 445, 451 (Cal. 1998) (citations omitted). Searches
conducted under those circumstances do not reasonably relate to the goals
of probation. Here, as explained, Camacho had a proper purpose in
searching Lietzau’s cell phone text messages that furthered the goals of
rehabilitating him and protecting the public. See supra ¶¶ 24–27. Nothing
suggests Camacho was motivated by an improper purpose, and Lietzau
does not suggest otherwise.
¶29
Finally, and importantly, Camacho’s search of the cell phone
did not delve deeper than reasonably necessary to determine whether
Lietzau was complying with his probation terms. Although Condition 4
diminished Lietzau’s reasonable expectation of privacy in his cell phone, it
did not eliminate it. See Knights, 534 U.S. at 118, 120. In short, Condition 4
did not grant Camacho carte blanche to indiscriminately search all
information accessible by the cell phone. Because a cell phone is a gateway
to a massive amount of personal information, see Riley, 573 U.S. at 393–95,
probationary searches must be limited to data reasonably expected to
contain information related to determining a probationer’s compliance with
probation conditions. The search here stayed within that boundary.
¶30
In sum, under the totality of the circumstances, we hold that
Camacho’s search of Lietzau’s cell phone was reasonable and therefore
compliant with the Fourth Amendment. The trial court erred by finding
otherwise.
CONCLUSION
¶31
We reverse the trial court’s order granting the motion to
suppress and remand for further proceedings. Although we agree with the
court of appeals’ disposition, we vacate its opinion to replace it with our
own.

11

023

EXHIBIT 3
Order of Arizona Supreme Court
denying reconsideration and
amending opinion, June 12, 2020

024

SUPREME COURT OF ARIZONA
STATE OF ARIZONA,

)
)
Appellant, )
)
v.
)
)
BRYAN MITCHELL LIETZAU,
)
)
Appellee. )
)
__________________________________)

Arizona Supreme Court
No. CR-19-0132-PR
Court of Appeals
Division Two
No. 2 CA-CR 18-0011
Pima County
Superior Court
No. CR20162952-001
FILED 06/12/2020

O R D E R
The court has received a motion for reconsideration filed by
Appellee, Bryan Mitchell Lietzau.
In

addition

to

arguing

that

the

Court

erred

in

its

legal

analysis, Appellee asserts the Court mistakenly stated that (1) the
police discovered messages on the cell phone, and (2) the conditions
of probation prohibited contact with S.E. and her family.
Based on the State’s representation in a filing in the court of
appeals, it appears that police were unable to retrieve messages from
the

cell

point.

phone,

making

the

Court’s

recitation

incorrect

on

this

This fact, however, does not impact the Court’s analysis.

The

Court

did

not

assert

that

the

conditions

prohibited contact with S.E. and her family.

of

probation

The Court’s references

to the “victim” were to the victim in the original, domestic violence
case.

Although the Court believes the reference is clear when read

in context, the matter can be clarified to eliminate any confusion.
After consideration by the full court,

025

Arizona Supreme Court No. CR-19-0132-PR
Page 2 of 3
IT IS ORDERED denying the motion for reconsideration.
IT IS FURTHER ORDERED the Opinion filed May 22, 2020 is amended
as follows:
The second to last sentence in paragraph 3 currently reads:
“Camacho informed police, who then obtained a search warrant to
search the cell phone and discovered the messages.”
The corrected sentence should read:
“Camacho typed out the messages and gave his transcription and
the cell phone to police.”
The second to last sentence in paragraph 21 currently reads:
“Lietzau’s reasonable expectation of privacy in his cell phone
log, e-mails, and text messages was particularly diminished
because he could reasonably expect they would be searched to
determine his compliance with probation conditions, including
conditions forbidding contact with the victim and her family.”
The corrected sentence should read:
“Lietzau’s reasonable expectation of privacy in his cell phone
log, e-mails, and text messages was particularly diminished
because he could reasonably expect they would be searched to
determine his compliance with probation conditions, including
conditions forbidding contact with the victim in the domestic
violence case and her family.”
The first sentence of paragraph 24 currently reads:
“Camacho, as the assigned surveillance officer, properly
monitored Lietzau’s compliance with probation conditions to
assist the APD’s efforts to simultaneously rehabilitate Lietzau
and protect the victim and society from future crimes.”
The corrected sentence should read:
“Camacho, as the assigned surveillance officer, properly
monitored Lietzau’s compliance with probation conditions to
assist the APD’s efforts to simultaneously rehabilitate Lietzau
and protect the domestic violence victim and society from future
crimes.”

026

Arizona Supreme Court No. CR-19-0132-PR
Page 3 of 3
The second sentence of paragraph 26 currently reads:
“Lietzau was prohibited from contacting
family as a condition of probation.”

the

victim

and

her

The corrected sentence should read:
“Lietzau was prohibited from contacting the domestic violence
victim and her family as a condition of probation.”
DATED this 12th day of June, 2020.

____/s/_____________________
ANN A. SCOTT TIMMER
Vice Chief Justice

TO:
Michael O'Toole
Jacob R Lines
David J Euchner
Abigail Jensen
Mikel Steinfeld
blc

027

EXHIBIT 4
Motion for Reconsideration, June 8,
2020

028

Pima County Public Defender’s Office
33 N. Stone Ave., 21st Floor, Tucson, AZ 85701
TEL: (520) 724-6800
E-Mail: david.euchner@pima.gov; abigail.jensen@pima.gov
DAVID J. EUCHNER, SB#021768
ABIGAIL JENSEN, SB#018810
Attorneys for Brian Lietzau

IN THE ARIZONA SUPREME COURT
STATE OF ARIZONA,
Appellant,
v.
BRIAN MITCHELL LIETZAU,
Appellee.

)
)
)
)
)
)
)
)
)
)

No. CR-19-0132-PR
No. 2 CA-CR 2018-0011
Pima County Superior Court
No. CR-20162952-001
MOTION FOR
RECONSIDERATION

Pursuant to Ariz. R. Crim. P. 31.20, Appellee moves the Court to reconsider
its Opinion dated May 22, 2020 for the following reasons.
I.

The Opinion ignores the Supreme Court’s mandate that “cell phones
are different” and strips probationers of all privacy rights, putting
probationers on par with incarcerated persons.
To “determine whether to exempt a given type of search from the warrant

requirement,” courts “assess[ ], on the one hand, the degree to which it intrudes
upon an individual's privacy and, on the other, the degree to which it is needed for
the promotion of legitimate governmental interests.” Riley v. California, 573 U.S.
373, 385 (2014), quoting Wyoming v. Houghton, 526 U.S. 295, 300 (1999). While
the factors for assessing the reasonableness of a probation search set out in State v.

029

Adair, 241 Ariz. 58 (2016), seem designed to aid in that assessment, the Court’s
Opinion in this case completely abandons that principle.
The Court gives lip service to the rule that, while a probationer’s Fourth
Amendment interests are limited by the terms of probation, they are not eliminated.
Opinion ¶ 17 (“[W]e have never held that [probationary search] conditions alone
are sufficient to make any search of a probationer’s person or property reasonable
under the Fourth Amendment. Instead, we have concluded that this condition
diminishes a probationer’s reasonable expectation of privacy in his person and
property. We examine the particular circumstances of a case to determine whether
that diminished expectation, in combination with other factors, renders a search
reasonable under the Fourth Amendment.”), citing, inter alia, Adair, 241 Ariz. at
61-62, ¶¶ 12, 18. The impact of the Opinion, however, is to eliminate all Fourth
Amendment protections for probationers and any need to assess the reasonableness
of a probation search as long as the probation officer is “searching the cell phone
… to ensure [the probationer’s] compliance with probation conditions.” Id. ¶ 26.
As the Riley Court recognized, limiting the scope of a cell phone search to a
search of evidence of the offense for which the suspect has been detained, or, in
this case, the probation conditions he is suspected of violating, imposes no limits at
all.
It would be a particularly inexperienced or unimaginative law
enforcement officer who could not come up with several reasons to
2

030

suppose evidence of just about any crime could be found on a cell
phone. Even an individual pulled over for something as basic as
speeding might well have locational data dispositive of guilt on his
phone. An individual pulled over for reckless driving might have
evidence on the phone that shows whether he was texting while
driving. The sources of potential pertinent information are virtually
unlimited….
Riley, 573 U.S. at 399.
While the Opinion pays scrupulous attention to the importance of ensuring a
probationer’s compliance with the terms of probation, it dismisses the other side of
that equation, i.e., the degree to which the search invades the probationer’s privacy
interests. Simply deciding that cell phones are “property” within the scope of the
search provision in Lietzau’s conditions of probation does not absolve this Court of
the requirement to assess the nature and scope of the privacy invasion occasioned
by the search of his phone. Probationers may have reduced privacy rights, but they
are not entirely stripped of all privacy rights as are incarcerated persons—yet the
Opinion implies that all privacy rights evaporate upon the signing of conditions of
probation.
The Court compounds this error, and repeats the Court of Appeals’ error, by
justifying the need to search a probationer’s phone because of the vast amount of
information a cell phone may contain. Opinion, ¶ 29; State v. Lietzau, 246 Ariz.
380, 385 ¶ 14 (App. 2019). Yet, the Court fails to consider how this fact increases
the invasiveness of a cell phone search, as the Riley Court recognized, and requires
3

031

a much higher level of justification than even a search of a probationer’s home, as
in Adair. Riley, 573 U.S. at 396-97 (“Indeed, a cell phone search would typically
expose to the government far more than the most exhaustive search of a house: A
phone not only contains in digital form many sensitive records previously found in
the home; it also contains a broad array of private information never found in a
home in any form—unless the phone is.”) (emphasis in original).
In effect, the Opinion turns conditions of probation into the “general
warrants” that “were the immediate evils that motivated the framing and adoption
of the Fourth Amendment.” Payton v. New York, 445 U.S. 573 (1980). That cannot
be allowed.
II.

The Opinion makes two critical factual errors that affected the
reasoning in the case. These errors cannot remain uncorrected.
In addition, the Opinion contains two critical factual errors that are crucial to

the reasoning in the case. First, this Court incorrectly stated in two places that
Lietzau’s conditions of probation prohibited “contact with the victim and her
family.” Opinion ¶¶ 21, 26. Lietzau was not convicted of any crime related to S.E.
or her family; he was on probation for a harassment charge against an
ex-girlfriend.
The origin of this error was the State’s Opening Brief: “Given that [Lietzau]
was found at the victim’s house, it was reasonable to check if he had made phone

4

032

contact as well.” OB ¶ 18. When Lietzau pointed this out in his answering brief,
see AB ¶ 23, the State acknowledged its factual error at the outset of its reply brief:
First, the State must acknowledge an error in its opening brief. As
Lietzau notes in paragraph 23 of his answering brief, the State did
assert in its opening brief that Lietzau was found at the victim’s
house. This statement is incorrect. This statement was a result of
undersigned counsel’s confusion about a conversation he had with the
trial attorney in this case. Undersigned counsel has reviewed the
record again and agrees that this statement is not supported by the
record. Counsel apologizes and asks this Court to disregard the
statement.
RB ¶ 2. The State complied with its duty of candor and corrected its mistake in
good faith. The State did not repeat the error in its response to the Petition for
Review.
This Court did not merely misstate the evidence in its cursory factual
summary in the beginning of the Opinion. On the contrary, it misstated this fact at
two separate parts of the reasoning, in a manner demonstrating how critical the
issue was to the outcome of the case. The primary fact upon which the Opinion
relied as evidence of Camacho’s reasonableness in searching the phone was that
“Lietzau, a domestic violence offender, was prohibited from contacting the victim
and her family as a condition of probation.” Opinion ¶ 26. If this fact is corrected,
the Court may not reach the same result. In any event, the fact must be corrected.
Second, this Court repeated the error of the Court of Appeals by incorrectly
stating that the search of Lietzau’s phone pursuant to the later search warrant
5

033

“discovered” the “incriminating photos and text messages between Lietzau and
S.E.” Opinion ¶ 4; State v. Lietzau, 246 Ariz. 380, 382 ¶ 4 (App. 2019). In a
previous special action in this case, the State made clear that the search of
Lietzau’s phone yielded no inculpatory evidence. See State’s Petition for Special
Action, p. 8, State v. Fell, 234 Ariz. 134 (App. 2017) (“By the time Lietzau’s
phone was forensically downloaded, the text messages that the probation officer
had transcribed were gone.”). None of the pleadings by either party in this case
supports the contrary statements by the Court of Appeals and this Court. Lietzau
pointed out this error in his Petition for Review, p. 3 n.2.
Conclusion
Therefore, Appellee asks the Court to vacate the Opinion and reconsider this
matter in a manner that comports with the Fourth Amendment as interpreted by the
U.S. Supreme Court, and to correct the factual error above in its revised opinion.
DATED: June 8, 2020.
By /s/ Abigail Jensen
David J. Euchner & Abigail Jensen
Attorneys for Brian Lietzau

6

034

EXHIBIT 5
Original opinion of Arizona
Supreme Court, May 22, 2020

035

IN THE

SUPREME COURT OF THE STATE OF ARIZONA
____________________________________________

STATE OF ARIZONA,
Appellant,
v.
BRYAN MITCHELL LIETZAU,
Appellee.
______________________________________________

No. CR-19-0132-PR
Filed May 22, 2020
______________________________________________

Appeal from the Superior Court in Pima County
CR20162952-001
The Honorable Howard Fell, Judge Pro Tempore
REVERSED AND REMANDED
_________________
Opinion of the Court of Appeals, Division Two
246 Ariz. 380 (App. 2019)
Filed March 25, 2019
VACATED
_________________
COUNSEL:
Barbara LaWall, Pima County Attorney, Jacob R. Lines (argued), Deputy
County Attorney, Tucson, Attorneys for State of Arizona
Joel Feinman, Pima County Public Defender, David J. Euchner (argued),
Abigail Jensen, Deputy Public Defenders, Tucson, Attorneys for Bryan
Mitchell Lietzau
Mikel Steinfeld (argued), Phoenix, Attorney for Amicus Curiae Arizona
Attorneys for Criminal Justice

036

STATE V. LIETZAU
Opinion of the Court
____________________
VICE CHIEF JUSTICE TIMMER authored the Opinion of the Court, in
which CHIEF JUSTICE BRUTINEL, and JUSTICES BOLICK, GOULD,
LOPEZ, BEENE, and MONTGOMERY joined.
____________________
VICE CHIEF JUSTICE TIMMER, Opinion of the Court:
¶1
Cell phones provide access to an immense array of private
information, much of which is stored in the Cloud or on sites controlled by
third parties. As such, the United States Supreme Court concluded in Riley
v. California that people have uniquely broad expectations of privacy in cell
phones and, therefore, a warrant is generally required to search them. 573
U.S. 373, 393–94, 401 (2014). In the wake of Riley, we are asked to decide
whether Arizona’s standard conditions of probation, which permit
warrantless searches of a probationer’s “property,” apply to cell phones.
We hold they do. We further hold that the search here was reasonable
under the totality of the circumstances and therefore compliant with the
Fourth Amendment.
BACKGROUND
¶2
In August 2014, the superior court entered judgment against
Bryan Lietzau for the crime of aggravated harassment, a domestic violence
offense and a class 6 undesignated felony. The court suspended imposition
of a prison sentence on Lietzau and placed him on supervised probation for
eighteen months. In return, Lietzau agreed to comply with uniform
conditions of supervised probation and separate domestic violence
probation terms, both of which outlined requirements for “leading a lawabiding lifestyle” and cooperating with the adult probation department
(“APD”), among other terms and conditions. Pertinent here, Lietzau
agreed to “submit to search and seizure of person and property by the APD
without a search warrant” (“Condition 4”).1
¶3
A few months later, G.E. reported to the APD her suspicion
that S.E., her thirteen-year-old daughter, and Lietzau were engaging in an
Similarly, the domestic violence probation terms required Lietzau to
“[s]ubmit to search and seizure of person and property by any probation
officer.”
1

2

037

STATE V. LIETZAU
Opinion of the Court
“inappropriate relationship.” APD surveillance officer Casey Camacho
arrested Lietzau weeks later for violating several conditions of probation
unrelated to S.E.: (1) failing to provide APD safe, unrestricted access to his
residence; (2) failing to participate and cooperate in counseling or assistance
programs as directed; (3) failing to take a drug test as directed; and (4)
failing to perform community restitution. En route to jail, Camacho looked
through text messages on Lietzau’s cell phone and discovered numerous
incriminating messages and photos between Lietzau and S.E. Camacho
informed police, who then obtained a search warrant to search the cell
phone and discovered the messages. The State subsequently indicted
Lietzau on six counts of sexual conduct with a minor.
¶4
Lietzau moved to suppress all evidence gathered as a result
of Camacho’s cell phone search, arguing the search violated his state and
federal constitutional rights to be free from unreasonable searches and
seizures. The State responded that Condition 4 justified Camacho’s
warrantless search because a cell phone is “property.” Both parties
provided evidence supporting their positions, including a transcription of
defense counsel’s interview of Camacho. After conducting a nonevidentiary hearing, the court granted the motion.
¶5
The court first reviewed the holdings in Riley and United States
v. Lara, 815 F.3d 605 (9th Cir. 2016), both of which addressed the unique
privacy implications attendant to cell phone searches. The court then
applied factors listed in State v. Adair, 241 Ariz. 58, 64 ¶¶ 23–25 (2016), to
determine whether the search was reasonable under the totality of the
circumstances, and thus constitutionally permissible. The court ultimately
found that the search was unreasonable because Condition 4 was not
sufficiently broad to permit the search, Camacho had no proper purpose in
searching the phone, the search was arbitrary, and the alleged probation
violations involved only “administrative kinds of things.”
¶6
The court of appeals reversed. State v. Lietzau, 246 Ariz. 380,
381 ¶ 1 (App. 2019). After applying the Adair factors, it found that the
search was reasonable. Id. at 384 ¶ 11. Unlike the superior court, the court
of appeals relied heavily on the fact that at the time of Lietzau’s arrest, the
APD and Camacho had been told about the suspected, inappropriate
relationship between Lietzau and S.E. Id. This allegation, according to the
court, gave the APD “a well-founded, non-arbitrary reason to suspect
Lietzau of committing another felony while on probation.” Id. ¶¶ 11–12.
The court also found that the term “property” in Condition 4 included a cell
3

038

STATE V. LIETZAU
Opinion of the Court
phone, and that cell phones are “‘ubiquitous’ repositories of
communications and photos” that may reveal an inappropriate relationship
with a minor. Id. at 385–86 ¶¶ 14–15. Under the totality of these
circumstances, the court concluded that Camacho’s search of the cell phone
was reasonable, and that the trial court erred by granting the motion to
suppress. Id. at 386 ¶ 19.
¶7
We granted Lietzau’s petition for review to resolve issues of
statewide importance that are likely to recur.
DISCUSSION
¶8
We review the trial court’s suppression order for an abuse of
discretion. See State v. Peoples, 240 Ariz. 244, 247 ¶ 7 (2016). In doing so, we
consider only the evidence presented at the suppression hearing and view
that evidence in a light most favorable to upholding the court’s ruling. Id.
An error of law constitutes an abuse of discretion. Id.
I. Cell phones as “property” under Condition 4
¶9
Lietzau argues the court of appeals erred by finding that
“property” in Condition 4 includes cell phones. He does not dispute that a
cell phone constitutes “property” under the plain meaning of the word. See
Property, Black’s Law Dictionary (11th ed. 2019) (defining “property” as
“the rights in a valued resource such as land, chattel, or an intangible”).
Rather, he relies on the Supreme Court’s decision in Riley to argue that the
term “property” in Condition 4 necessarily excludes cell phones.
¶10
The Court in Riley recognized that cell phones are
“minicomputers” that hold “a digital record of nearly every aspect of
[people’s] lives—from the mundane to the intimate” and are thus unlike the
types of property carried in one place by people living before the digital
age. Riley, 573 U.S. at 393–95. As such, the Court concluded that a warrant
is generally required to search a cell phone, and such devices are not subject
to the search incident to arrest exception to the Fourth Amendment’s
warrant requirement. Id. at 401–03; see also Peoples, 240 Ariz. at 248–49
¶¶ 11–16 (discussing Riley).
¶11
Lietzau argues that after Riley, just as a warrant is generally
required to search an arrestee’s cell phone, a warrant is generally required
to search a probationer’s cell phone. Because the trial court was
4

039

STATE V. LIETZAU
Opinion of the Court
presumptively aware of Riley before placing Lietzau on probation, and the
court could not impose an illegal condition, he asserts that Condition 4
necessarily excludes cell phones from its reach. Cf. Polk v. Hancock, 237 Ariz.
125, 129 ¶ 10 (2015) (concluding the trial court erred by imposing illegal
probation term despite the defendant’s agreement because “parties cannot
confer authority on the court that the law proscribes”).
¶12
We disagree that Riley prohibits probation conditions
authorizing warrantless searches of cell phones. Simply put, the Court did
not address that issue. Conversely, it has recognized that supervising
probationers “permit[s] a degree of impingement upon privacy that would
not be constitutional if applied to the public at large” to “assure that the
probation serves as a period of genuine rehabilitation and that the
community is not harmed by the probationer’s being at large.” Griffin v.
Wisconsin, 483 U.S. 868, 875 (1987). To that end, it has found that “a court
granting probation may impose reasonable conditions that deprive the
offender of some freedoms enjoyed by law-abiding citizens,” including a
condition requiring the probationer to “[s]ubmit his . . . person, property,
place of residence, vehicle [and] personal effects” to a warrantless search.
United States v. Knights, 534 U.S. 112, 114, 119 (2001); see also State v.
Montgomery, 115 Ariz. 583, 584 (1977) (“[A] probationer who has been
granted the privilege of probation on condition that he submit at any time
to a warrantless search may have no reasonable expectation of traditional
Fourth Amendment protection.” (quoting People v. Mason, 488 P.2d 630, 633
(Cal. 1971)). Nothing in Riley suggests that the substantial privacy concerns
attendant to warrantless cell phone searches of arrestees, who have not
been convicted of a crime, foreclose warrantless searches of probationers’
cell phones pursuant to a probation condition, assuming the search is
otherwise reasonable. See Griffin, 483 U.S. at 873, 876 (requiring a
warrantless search of a probationer’s home to be “reasonable” to comply
with the Fourth Amendment).
¶13
Lara, relied on by the trial court, does not persuade us to
exclude cell phones from the reach of Condition 4. Lara’s probation
conditions authorized warrantless, suspicionless searches of his “person
and property, including any residence, premises, container or vehicle under
[his] control.” Lara, 815 F.3d at 607. Probation officers searched text
messages on Lara’s phone and found evidence ultimately leading to a
criminal conviction. Id. at 608. The Ninth Circuit held that the district court
erred by not suppressing that evidence because the cell phone search was
unreasonable under the circumstances. Id. at 612, 614. Significantly, for our
5

040

STATE V. LIETZAU
Opinion of the Court
purposes, the court concluded that the word “property” in Lara’s probation
conditions did not unambiguously include cell phone data. Id. at 611. It
pointed out that although the examples given in the condition “refer to
physical objects that can be possessed,” cell phone data cannot be physically
possessed and much information accessible through a phone, such as
banking and medical records, are possessed by third parties and are thus
not “under [Lara’s] control” as provided in the condition. Id.
¶14
Lara is distinguishable and, to the extent it is not, we reject its
reasoning. Condition 4 authorizes a warrantless search of Lietzau’s
“property” without qualifying examples, making it broader than the
condition in Lara. Regardless, we disagree with Lara that the inability to
physically possess digital data means it is not property when displayed on
a cell phone. Whether we consider digital data to be merged with the cell
phone displaying it, much like information written on paper, or treat it as
intangible, digital data constitutes “property.” See Property, Black’s Law
Dictionary, supra (including “chattel” and something “intangible” in the
definition of “property”).
¶15
In sum, the plain meaning of “property” in Condition 4
includes a cell phone. Riley does not vary that meaning. The trial court
erred by concluding otherwise.
II.

Reasonableness of the search under the Fourth
Amendment

¶16
Lietzau argues that even if Condition 4 authorized a search of
his cell phone, Camacho’s search was unreasonable because it was
suspicionless and unrelated to the reason for Lietzau’s arrest or his
probation conditions. More specifically, he asserts that the search had
nothing to do with S.E., and the court of appeals “conjured its own factual
findings” to justify the search on that basis. The State responds that the
court of appeals correctly applied the Adair factors to conclude that the
search was reasonable and thus compliant with the Fourth Amendment.
¶17
We have previously found that probation conditions like
Condition 4 are “not an unreasonable or an unconstitutional limitation
upon [a probationer’s] right to be free from unreasonable searches and
seizures.” Montgomery, 115 Ariz. at 584. But we have never held that such
conditions alone are sufficient to make any search of a probationer’s person
or property reasonable under the Fourth Amendment. See Adair, 241 Ariz.
6

041

STATE V. LIETZAU
Opinion of the Court
at 61 ¶ 11 (declining to address the issue). Instead, we have concluded that
this condition diminishes a probationer’s reasonable expectation of privacy
in his person and property. See id. ¶ 12; Montgomery, 115 Ariz. at 584; see
also Knights, 534 U.S. at 119–20. We examine the particular circumstances
of a case to determine whether that diminished expectation, in combination
with other factors, renders a search reasonable under the Fourth
Amendment. See Adair, 241 Ariz. at 62 ¶ 18.
¶18
The most recent case from this Court to address probationary
searches is Adair. There, we considered whether reasonable suspicion was
required to authorize the warrantless search of a probationer’s home. Id. at
60 ¶ 9. After reviewing a trilogy of Supreme Court opinions and balancing
a probationer’s “significantly diminished privacy interests” against the
state’s “substantial” interests in preventing recidivism, protecting the
public, and reintegrating probationers into society, we concluded that a
warrantless probationary search complies with the Fourth Amendment if
the search is reasonable under the totality of the circumstances. Id. at 62–64
¶¶ 19–23.
¶19
The Adair Court identified a non-exhaustive list of factors
relevant to the reasonableness inquiry: (1) whether the “target of the search
[is] a known probationer subject to a valid, enforceable probation condition
allowing a warrantless search”; (2) whether the search is “conducted by a
probation officer in a proper manner and for the proper purpose of
determining whether the probationer was complying with probation
obligations”; (3) whether “the search [is] arbitrary, capricious or harassing”;
(4) “the nature and severity of the probationer’s prior conviction(s) for
which he is on probation”; (5) “the content and scope of the probation
conditions”; (6) “the nature and severity of the suspected criminal offenses
or probation violations giving rise to the search”; (7) “whether the
suspected crimes or violations are the same as or similar to the crimes of
which the probationer was previously convicted”; and (8) “the nature,
source, and plausibility of any extraneous information supporting the
search.” Id. ¶ 25 (citation omitted). Not all factors are relevant in every
case, and they are somewhat overlapping.
¶20
Applying the Adair factors here and viewing the facts in a
light most favorable to upholding the trial court’s ruling, we conclude that
Camacho’s search of Lietzau’s cell phone was reasonable under the totality
of the circumstances.
7

042

STATE V. LIETZAU
Opinion of the Court
¶21
Lietzau was on supervised probation and subject to
Condition 4, which authorized a warrantless search of his “property,”
including his cell phone. As such, Lietzau had a diminished expectation of
privacy in his phone. See Knights, 534 U.S. at 119–20; Adair, 241 Ariz. at 61
¶ 12; Montgomery, 115 Ariz. at 584. Lietzau’s reasonable expectation of
privacy in his cell phone log, e-mails, and text messages was particularly
diminished because he could reasonably expect they would be searched to
determine his compliance with probation conditions, including conditions
forbidding contact with the victim and her family. The search was
conducted by a surveillance officer, and nothing suggests the search was
conducted in an improper manner.
¶22
The trial court found, without explanation, that Camacho
lacked a proper purpose for conducting the search and that the search was
arbitrary. During defense counsel’s interview of Camacho, counsel never
asked, and Camacho did not explain, the reason for the search.
Nevertheless, Lietzau argues the search was improper because Camacho
indicated that he searches probationers’ cell phones routinely, and he did
not say he searched Lietzau’s phone because of any suspected wrongdoing
or probation violation. To this end, Lietzau pieces together Camacho’s
assertions that he “go[es] through hundreds of phones a month,” he “didn’t
know one way or the other” whether Lietzau and S.E. text-messaged each
other, and he believed he did not need a warrant because Lietzau was on
probation.
¶23
Lietzau’s focus on Camacho’s subjective purpose for
searching the cell phone is misplaced. The reasonableness of a search turns
on objective criteria and not an officer’s subjective mindset or motivations.
See Kentucky v. King, 563 U.S. 452, 464 (2011) (“[W]e have never held, outside
limited contexts such as an inventory search or administrative inspection
. . . , that an officer’s motive invalidates objectively justifiable behavior
under the Fourth Amendment.” (citation omitted) (internal quotation
marks omitted)); see also State v. Hausner, 230 Ariz. 60, 73 ¶ 39 (2012) (to
same effect). An objective inquiry is consistent with other tests for
reasonableness and promotes “evenhanded law enforcement.” See King,
563 U.S. at 464 (citing Horton v. California, 496 U.S. 128, 138 (1990)). Thus, to
determine whether Camacho searched the cell phone for the proper
purpose of determining whether Lietzau was complying with his probation
obligations, we examine whether the circumstances, viewed objectively,
support such a finding. See Ashcroft v. al-Kidd, 563 U.S. 731, 736 (2011)
(“Fourth Amendment reasonableness is predominantly an objective
8

043

STATE V. LIETZAU
Opinion of the Court
inquiry . . . [that asks] whether the circumstances, viewed objectively,
justify [the challenged] action.” (citations omitted) (quotation marks
omitted)).
¶24
Camacho, as the assigned surveillance officer, properly
monitored Lietzau’s compliance with probation conditions to assist the
APD’s efforts to simultaneously rehabilitate Lietzau and protect the victim
and society from future crimes. Cf. Knights, 534 U.S. at 119–21 (describing
the goals for probation as rehabilitation, protecting society from future
criminal violations, and integrating the probationer back into the
community); see also Montgomery, 115 Ariz. at 584 (noting that probation
conditions “aid in the rehabilitation process or prove a reasonable
alternative to incarceration as punishment for the crime committed”); Ariz.
R. Crim. P. 27.1(b) (stating a “court may impose conditions on a probationer
that promote rehabilitation and protect any victim”). One probation
condition required Lietzau to “maintain a crime-free lifestyle by obeying all
laws, and not engaging or participating in any criminal activity.” At the
time of the search, the APD and Camacho had been informed by G.E. on
more than one occasion that Lietzau, a twenty-two-year-old man, was
suspected of engaging in an “inappropriate relationship” with S.E., a
thirteen-year-old girl, which Camacho reasonably understood to mean a
sexual relationship. If G.E.’s suspicions were correct, Lietzau was
committing serious criminal offenses that not only violated his probation
conditions but victimized S.E.
¶25
As the court of appeals observed, text-messaging about sexual
relationships is commonly done among teens and young adults. See Lietzau,
246 Ariz. at 385 ¶ 14; see also Elizabeth M. Ryan, Sexting: How the State Can
Prevent a Moment of Indiscretion from Leading to a Lifetime of Unintended
Consequences for Minors and Young Adults, 96 Iowa L. Rev. 357, 360 (2010)
(observing that sending “sexually suggestive text messages and images”
via cell phone is a “social phenomenon among minors and young adults”).
Determining whether Lietzau’s text messages revealed a sexual
relationship with S.E. directly related to his compliance with probation
conditions, his rehabilitation, and the APD’s efforts to protect the public
from future crimes. Thus, Camacho had an objectively proper purpose for
searching those messages, even if that was not his subjective motivation.
See Adair, 241 Ariz. at 66 ¶ 32 (upholding probationary search that “directly
related” to the requirement that the probationer obey all laws and not
possess illegal drugs).
9

044

STATE V. LIETZAU
Opinion of the Court
¶26
Even absent evidence that Lietzau and S.E. were engaging in
a suspected sexual relationship, Camacho had an objectively proper
purpose for searching the cell phone messages to ensure Lietzau’s
compliance with probation conditions. Lietzau, a domestic violence
offender, was prohibited from contacting the victim and her family as a
condition of probation. Checking Lietzau’s cell phone text messages to
determine whether he was obeying the non-contact condition constituted a
proper purpose for the search. Cf. Griffin, 483 U.S. at 875 (stating that
“probation serves as a period of genuine rehabilitation and [assures] that
the community is not harmed by the probationer’s being at large,” and
“[t]hese same goals require and justify the exercise of supervision to assure
that the restrictions are in fact observed”). Camacho did not have to suspect
that Lietzau had violated the non-contact condition to perform a cursory
search of the messages, both ensuring compliance and deterring future
violations. Cf. id. at 876 (analogizing a probation officer to a parent who
acts with “the welfare of the probationer” in mind and citing an officer’s
need to maximize “the deterrent effect” offered by expeditious searches).
¶27
Lietzau was also required to provide the APD access to his
residence, participate in counseling and drug testing, and perform
community restitution, all of which he failed to do within months after
being placed on probation. The trial court characterized these probation
violations as “administrative kinds of things” and implied they played no
part in determining whether Camacho’s search was reasonable. We
disagree. These conditions were imposed to rehabilitate Lietzau while
ensuring he did not pose a danger to society. By skipping counseling and
evading drug testing, Lietzau presented a presumptive threat for
reoffending, thus endangering the community. He simultaneously
prevented the ADP from fully assessing the level of that threat and
potentially enhancing its rehabilitative efforts by cutting off access to his
residence. Under these circumstances, checking the cell phone messages to
determine whether he was reoffending or otherwise posing a public threat
reasonably furthered the goals of rehabilitation and public protection. See
Samson v. California, 547 U.S. 843, 854 (2006) (observing that a probationer’s
incentive to conceal criminality “justifie[s] an ‘intensive’ system” for
supervision (citing Griffin, 483 U.S. at 875)).
¶28
We disagree with the trial court that the search was arbitrary.
A search is arbitrary, capricious, or harassing if it is “conducted for reasons
unrelated to the rehabilitative and reformative purposes of probation or
other legitimate law enforcement purposes.” People v. Bravo, 738 P.2d 336,
10

045

STATE V. LIETZAU
Opinion of the Court
342 (Cal. 1987). Most often, determining whether a search was conducted
for a proper purpose will resolve whether the search was arbitrary,
capricious, or harassing. But a search directly related to a probation
condition can nevertheless be arbitrary, capricious, or harassing if, for
example, “motivated by personal animosity” or conducted “too often, or at
an unreasonable hour, or if unreasonably prolonged or for other reasons
establishing arbitrary or oppressive conduct by the searching officer.”
People v. Reyes, 968 P.2d 445, 451 (Cal. 1998) (citations omitted). Searches
conducted under those circumstances do not reasonably relate to the goals
of probation. Here, as explained, Camacho had a proper purpose in
searching Lietzau’s cell phone text messages that furthered the goals of
rehabilitating him and protecting the public. See supra ¶¶ 24–27. Nothing
suggests Camacho was motivated by an improper purpose, and Lietzau
does not suggest otherwise.
¶29
Finally, and importantly, Camacho’s search of the cell phone
did not delve deeper than reasonably necessary to determine whether
Lietzau was complying with his probation terms. Although Condition 4
diminished Lietzau’s reasonable expectation of privacy in his cell phone, it
did not eliminate it. See Knights, 534 U.S. at 118, 120. In short, Condition 4
did not grant Camacho carte blanche to indiscriminately search all
information accessible by the cell phone. Because a cell phone is a gateway
to a massive amount of personal information, see Riley, 573 U.S. at 393–95,
probationary searches must be limited to data reasonably expected to
contain information related to determining a probationer’s compliance with
probation conditions. The search here stayed within that boundary.
¶30
In sum, under the totality of the circumstances, we hold that
Camacho’s search of Lietzau’s cell phone was reasonable and therefore
compliant with the Fourth Amendment. The trial court erred by finding
otherwise.
CONCLUSION
¶31
We reverse the trial court’s order granting the motion to
suppress and remand for further proceedings. Although we agree with the
court of appeals’ disposition, we vacate its opinion to replace it with our
own.

11

046

EXHIBIT 6
Motion to Suppress Cell Phone
Evidence with Attachments, filed
Nov. 27, 2017

047

048

049

050

051

052

053

054

055

056

057

058

059

060

061

062

063

064

065

066

067

068

069

070

071

072

073

074

075

076

077

078

079

080

081

082

083

084

085

086

087

088

089

090

091

092

093

094

095

096

097

098

099

100

101

102

103

104

105

106

107

108

109

EXHIBIT 7
State’s Response to Motion to
Suppress Cell Phone Evidence with
Attachments, filed Dec. 7, 2017

110

111

112

113

114

115

116

117

118

119

120

121

122

123

124

125

126

127

128

129

130

131

132

133

EXHIBIT 8
Transcript of Trial Court Ruling on
Motion to Suppress Evidence,
Dec. 11, 2017

134

1

1

IN THE SUPERIOR COURT OF THE STATE OF ARIZONA

2

IN AND FOR THE COUNTY OF PIMA

3
4

THE STATE OF ARIZONA,

5

Plaintiff,

6

vs.

7

BRYAN MITCHELL LIETZAU,

8

Defendant.
________________________________

9

)
)
)
)
) No. CR20162952-001
) 2CA-CR 2018-0011
)
)
)
_)

10
11
12
13

BEFORE THE HONORABLE HOWARD W . FELL

14

JUDGE OF THE SUPERIOR COURT

15

DIVISION SR

16
17

HEARING ON MOTION TO COMPEL/DISCLOSE

18

December 11, 2017

19

Tucson, Arizona

20
21
22
23
24
25

Reported by:
Olivia Armenta, RPR
Certified Reporter # 50411

PIMA COUNTY SUPERIOR COURT

135

2

1
2
3
4
5

APPEARANCES:
APPEARING ON BEHALF OF THE PLAINTIFF:
Rachael J. Fornof, Deputy County Attorney
APPEARING ON BEHALF OF THE DEFENDANT:

6

Christopher J. Lynch, Esquire

7

Abigail R. Okrent, Esquire

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

PIMA COUNTY SUPERIOR COURT

136

3

1

P R O C E E D I N G S

2
3

THE COURT:

State of Arizona versus Bryan

4

Lietzau, 20162952.

5

Okrent and Chris Lynch for Mr. Lietzau, who's present, in

6

custody.

7

Rachael Fornof for the State, Abigail

I've read everything and read the cases,

8

unless either or both of you have something that you need

9

to tell me, I'm ready.

10

MR. LYNCH:

Okay.

Judge, I just wanted -- I

11

know we were last in court with a discussion about the

12

un-redacted notes.

13

THE COURT:

Right.

14

MR. LYNCH:

You indicated you were going to

15

give them to me.

16

THE COURT:

Oh, yeah.

17

MR. LYNCH:

So can I have an Order actually

18

granting the motion, and can you -- will you please give

19

them to me?

20
21

THE COURT:
right here.

I had them.

Yeah, let me see if I have them
Oh, here they are.

22

I'm sorry, that's not it.

23

MR. LYNCH:

Well, Judge --

24

THE COURT:

Yeah, I'll find them.

25

MR. LYNCH:

-- if you're inclined to grant

PIMA COUNTY SUPERIOR COURT

137

4

1

the motion, if you could just have the Minute Entry

2

indicate the motion is granted and they shall disclose it,

3

then at least it comes through the electronic disclosure,

4

and then it's part of our file record.

5

THE COURT:

It's ordered that the un-redacted

6

notes of the legal assistant that was present when the

7

alleged victim was most recently interviewed are to be made

8

available to Defense Counsel.

9
10

MR. LYNCH:

Thank you, Your Honor.

Can we

put a time, seven days -- within seven days?

11

MS. FORNOF:

12

going to be in trial with me next week.

13

ten days, that would be really great.

14

THE COURT:

I do know that Ms. Aspacher is

No, no.

I have them right here.

15

I found them.

16

can go back and make copies yourself.

17

So if we can get

The only thing was redacted, and I'll -- you

The only thing that was redacted was, TR next

18

week.

19

admit.

20

was it.

21

Dan explains text messages and calls jail.
Explains lying testimony.

By Bryan

Defendant present.

And then the other thing was BACA, whatever

22

that is, guardians for children counselor support.

23

then there's -- at the bottom it says, Monday three to

24

five.

25

That

Empty courtroom.
MR. LYNCH:

And

Hearing Monday at 2:15.
Okay.

PIMA COUNTY SUPERIOR COURT

138

5

1

THE COURT:

That's all that was redacted.

So

2

when we finish with this hearing, just go back and Lindsay

3

will make copies of both the redacted and the un-redacted

4

for you, and you can compare and contrast.

5

MR. LYNCH:

Thank you, Your Honor.

6

THE COURT:

All right.

7

MR. LYNCH:

Can the Minute Entry then

8

So now --

indicate that the motion was granted?

9

THE COURT:

Yeah, yeah.

10

MR. LYNCH:

Okay.

11

THE COURT:

All right.

12

MS. FORNOF:

Great.

And just for the record, Judge,

13

I know that you indicated that you've read the motions and

14

you've read the cases.

15

ensure is that we have laid an adequate record in terms of

16

issues of reasonableness that are --

17

I think what the State wants to

THE COURT:

I read the responses.

18

that that's what you guys wanted to say.

19

MS. OKRENT:

20

I'm sorry, have we moved on to

the Motion to Suppress?

21

MR. LYNCH:

Yes.

22

THE COURT:

Yeah.

23

MS. OKRENT:

24
25

I assume

Because I would like to say

something on that.
THE COURT:

All right.

PIMA COUNTY SUPERIOR COURT

139

6

1

MS. FORNOF:

So I guess all I was saying is

2

that unless the Court has made specific findings of that, I

3

think what the State would want is to present evidence in

4

terms of testimony.

5

do that, unless the Court doesn't --

6

We have the probation officer here to

THE COURT:

Well, it's not the probation

7

officer that searched the cell phone, so it's not going to

8

do me any good or Defense Counsel any good.

9

here.

10

MS. FORNOF:

Camacho's not

No, and obviously she's looked

11

at the case notes surrounding the search and things like

12

that, but that would be the only evidence we present.

13

THE COURT:

14

MS. OKRENT:

15

I don't need any testimony.
Your Honor, I would like to make

a little bit more argument on that.

16

THE COURT:

17

MS. OKRENT:

18

THE COURT:

On what?
The Motion to Suppress.
All right.

If it's something

19

that's already been -- is contained, then I don't want to

20

hear it.

21

MS. OKRENT:

It's a little bit more

22

information that wasn't briefed in my -- specific to the

23

cases already cited that wasn't briefed in my motion, that

24

was misrepresented in their reply -- or their response, and

25

I did not note that in my reply.

PIMA COUNTY SUPERIOR COURT

140

7

1

THE COURT:

2

MS. OKRENT:

Which was what?
The Adair Factors are very

3

important.

4

long as the search was in the search conditions, it was

5

presumed reasonable.

6

search wasn't capricious or harassing.

7

conditions in Adair actually say arbitrary, capricious, or

8

harassing.

The State maintains that Adair said that as

9

They also said that as long as the

THE COURT:

10

MS. OKRENT:

And the search

Right.
Which is an important part of

11

the general list of factors that Adair lists that require

12

that there is a nexus between the search and the suspected

13

offense or violation --

14
15

THE COURT:

Yeah, I was going to go over that

in my ruling.

16

MS. OKRENT:

17

THE COURT:

18

MS. FORNOF:

Thank you, Your Honor.
Rachael, anything else?
No.

Just for the record, the

19

State would like to call the witness to the stand, but

20

understands that the Court's position is that that may not

21

be necessary.

22

THE COURT:

All right.

So the issue here is

23

whether or not the -- essentially the blanket condition in

24

the conditions of probation that Mr. Lietzau signed, which

25

is No. 5, grant probation officer safe access to your

PIMA COUNTY SUPERIOR COURT

141

8

1

residence and property, submit to search and seizure of

2

person and property by any probation officer, provide

3

probation officer with truthful answers to inquiries and

4

all documentation as directed, whether that is sufficient

5

to essentially give the Probation Department carte blanche

6

about searching anything that they feel like they want to

7

search.

8
9

And in this case the allegations that were
made against Mr. Lietzau in the Petition to Revoke

10

Probation, for which he was arrested on the day that the

11

cell phone was seized by Surveillance Officer Camacho, were

12

as follows.

13

On November 23rd, 2014, he failed to provide

14

a safe, unrestricted access to his residence.

15

is what he admitted, that on October 28th and November 25th

16

he failed to participate and cooperate in any program of

17

counseling or assistance as directed by Adult Probation

18

Department and the Court.

19

9th -- 29th, December 3rd, he failed to drug test.

20

4, he failed to perform community restitution as directed.

No. 2, which

No. 3, August 25th, September
And No.

21

So factually, my understanding is that

22

probation officer -- or Camacho arrests Mr. Lietzau.

23

the way to the jail seized -- his cell phone was seized at

24

the time on the way to the jail.

He searches the --

25

Camacho searches the cell phone.

He finds information that

PIMA COUNTY SUPERIOR COURT

142

On

9

1

he believes is incriminating with regard to crimes that are

2

unrelated to what Mr. Lietzau was on probation for.

3

He then says that he made some notes about

4

that, and then provides the information to Tucson Police

5

Department.

6

gets a warrant based on -- and the Affidavit is clear,

7

based on the information that Camacho gave the police

8

officer.

9

Tucson Police Department calls Judge Godoy,

Judge Godoy grants a search warrant.
So as Abigail started saying before I

10

interrupted her, the cases that I think are most important

11

are what were cited by the Defense, and responded to by the

12

State.

13

So Riley, we know -- Riley versus California,

14

we know that a search warrant is required to search

15

someone's cell phone.

16

of when someone's on probation, and they've agreed to allow

17

the Probation Department to search their property.

18

But that didn't deal with the issue

So then we look at Lara, which is United

19

States v. Lara.

20

the Court indicated that -- a number of things.

21

them was that in Lara's case, and he was on probation, that

22

the conditions of probation were not specific enough, and

23

they didn't include cell phone data, just property.

24
25

And in that case, the 9th Circuit case,
But one of

And the Lara Court concluded that the data on
the cell phone is not contemplated by that blanket

PIMA COUNTY SUPERIOR COURT

143

10

1

authorization when someone's on probation to search

2

property.

3

on the one hand the degree to which the search intrudes

4

upon an individual's privacy, and on the other, the degree

5

to which the search is needed for the promotion of

6

legitimate governmental interests.

7

probationer needs to be unambiguously informed of what

8

they're agreeing to when agreeing to the search.

And Lara said they have to -- we have to balance

And also said that a

9

So they say -- the Lara Court says that the

10

word property doesn't include cell phone data, especially

11

when the word is read in conjunction with language that

12

follows.

13

property, including any residence, premises, container, or

14

vehicle under my control, which is actually broader than

15

what our Probation Department does.

16

types of property named as examples refer to physical

17

objects and can be possessed.

18

object, but cell phone data, which were the subject of the

19

two searches in this case, are not property in that sense.

So they say we repeat the relevant language here,

20

Each of the specific

A cell phone is such an

So then Lara says, in sum we conclude that

21

Lara had a privacy interest in his cell phone and the data

22

it contained.

23

light of the broad amount of data contained in or

24

accessible through the cell phone.

25

privacy interest was somewhat diminished in light of his

The privacy interest was substantial in

We recognize his

PIMA COUNTY SUPERIOR COURT

144

11

1

status as a probationer.

2

the search of the cell phone data was unlawful, and that

3

the exclusionary rule bars the admission of the evidence

4

that was the fruit of the unlawful search.

5

But they ultimately conclude that

But there's this whole issue about

6

reasonableness, you know, what's reasonable.

7

we look at Adair, which is what Abigail started talking

8

about.

9

circumstances.

And so then

And Adair says that we look at the totality of the
And they outline I think it's eight

10

criteria to determine whether the totality of the

11

circumstances -- whether some -- whether a search by the

12

probation officer is reasonable.

13

So one is the target of the search must be

14

known, must be a known probationer, subject to a valid

15

enforceable probation condition.

Okay.

That one we got.

16

The search must be conducted by a probation

17

officer in a proper manner, and for the proper purpose of

18

determining whether the probation officer was complying

19

with probation obligations.

20

There's no evidence that the search was conducted by a

21

probation officer in the proper -- well, the proper manner,

22

yes, but for the proper purpose, no.

23
24
25

I don't think that applies.

The search must not be arbitrary.

I find

that it was in this case.
The nature and severity of the probation

PIMA COUNTY SUPERIOR COURT

145

12

1

officer's prior conviction, which is on probation, it's a

2

Class 6 open.

3

office -- of the probation conditions.

4

of probation were not broad enough to permit the search of

5

a cell phone.

6

The content and scope of the probation
Here the conditions

The nature and severity of the suspected

7

criminal offense is the probation violations.

8

probation violations didn't -- alleged probation violations

9

didn't indicate that any new crimes had been committed.

Well, these

10

These were all administrative kinds of things, failing to

11

get drug counseling and so forth.

12

not -- I'm sorry, and the nature source and plausibility of

13

any extraneous information supporting the search.

And finally, whether or

14

Look, you know, the Court finds that the

15

search conducted by the probation officer violated Mr.

16

Lara's constitutional rights.

17

search thereafter, even with the warrant, was the fruit of

18

-- the so-called fruit of the poisonous tree, and it's

19

precluded.

20

phone documentation and information is precluded.

21

The -- and as such, any

So the Motion to Suppress is granted, the cell

MR. LYNCH:

Thank you, Your Honor.

22

want to make clarification.

23

finding was as it relates to Defendant Lara.

24

Lietzau --

25

THE COURT:

I just

You did mention just now your
You meant

I did, yes.

PIMA COUNTY SUPERIOR COURT

146

13

1

MR. LYNCH:

Great.

2

THE COURT:

Okay.

Thank you, Judge.
All right.

So now,

3

Rachael, I don't know if Dawn said anything to you, but she

4

sent me an email.

5

I think you got it, too, Chris.

6

MR. LYNCH:

I did, Your Honor.

7

THE COURT:

About --

8

MS. FORNOF:

9

THE COURT:

10

MR. LYNCH:
of order, Judge.

13
14
15
16

She forwarded --- Wendy Dutton being available

on that Thursday or Friday.

11
12

I did.

We'll allow her to be taken out

That's fine.

THE COURT:

Okay.

Well, when you say out of

MR. LYNCH:

Well, the trial is going to be on

order --

Monday, the 8th.

17

THE COURT:

Right.

18

MR. LYNCH:

It is foreseen that the trial

19

will go through till Friday.

20

THE COURT:

Right.

21

MR. LYNCH:

Sounds like she can be called --

22

THE COURT:

On Thursday.

23

MR. LYNCH:

-- on Thursday or Friday.

24

THE COURT:

Okay.

25

MR. LYNCH:

On Thursday she could be

All right.

PIMA COUNTY SUPERIOR COURT

But --

147

14

1

called --

2

THE COURT:

All right.

The reason I'm

3

pausing here is because -- do you expect that we're going

4

to finish all the testimony on Thursday?

5

MR. LYNCH:

I'm expecting that we're going to

6

finish all the -- I'm hoping that we'll finish all the

7

testimony by Thursday.

8

THE COURT:

Yeah.

9

MR. LYNCH:

Right.

10

THE COURT:

So presume --

11

MR. LYNCH:

-- closings in the morning, and

THE COURT:

Okay.

12

Okay.
And then --

then be done.

13

All right.

So presumably

14

we'll finish the case on Friday, unless they need to come

15

back on Monday to deliberate.

16

MR. LYNCH:

That's correct.

17

THE COURT:

Okay.

18

MR. LYNCH:

So there may be some testimony on

19

All right.

Friday, but I don't expect it.

20

Go ahead.

21

THE COURT:

22

MS. OKRENT:

Abigail?
This is just regarding the

23

motion.

I just want to make sure that the issue standing

24

was addressed, and that the Court finds that Mr. Lietzau

25

does have standing --

PIMA COUNTY SUPERIOR COURT

148

15

1

THE COURT:

Yes.

It's also the Court's

2

finding that Mr. Lietzau has standing to challenge the

3

search of the cell phone.

4

MR. LYNCH:

5

So I think if we can -- I think the thought

6

Great.

Thanks, Judge.

is we start the trial on Monday at 1:30.

7

THE COURT:

Yeah.

8

MR. LYNCH:

We finish the trial on Friday,

9
10

with instructions to the Jury, or the Jury may have already
reached a verdict by Friday.

11

THE COURT:

Yeah.

12

MR. LYNCH:

We're going to move it quickly.

13

THE COURT:

So the trial date of the January

14

8th at 1:30 is affirmed.

15

MR. LYNCH:

Thank you.

16

THE COURT:

All right.

17
18

All right.

Okay.

Anything else going

to come up between now and then?
MR. LYNCH:

There's only one additional

19

issue, and it's a little bit sticky.

And that is you've

20

already ruled that the jail calls are limited to the jail

21

calls that were disclosed.

22

THE COURT:

Right.

23

MR. LYNCH:

I have 191 jail calls that were

24

just recently disclosed.

25

calls that were disclosed before and are subject to your

And they all appear to be jail

PIMA COUNTY SUPERIOR COURT

149

16

1

prior ruling.

2

take.

3

So that's the position that we're going to

I don't know if the State is taking something

4

new, but that case -- that decision also went up to the

5

Court of Appeals.

6

that you have the discretion to make the ruling that you

7

did.

And they denied review, but indicated

8

THE COURT:

Uh-huh.

9

MR. LYNCH:

So there's, I think, five jail

10

calls that have been identified as being admissible, and

11

that's it.

12

have a different understanding of it, that we get that

13

before you and heard.

14
15

And I want to make sure that the State, if they

And I think the burden's on them.

THE COURT:

Yeah, that was my recollection of

what my ruling was.

16

But talk to Dawn about it, Rachael, and find

17

out what her recollection is.

18

that needs to be filed, file it.

19

And if there's something

MR. LYNCH:

Great.

21

THE COURT:

Okay.

22

MR. LYNCH:

-- that I can think of.

23

THE COURT:

All right.

20

24
25

That's it, Judge.

That's

the only --

Then unless I'm so

fortunate to see you otherwise before the -MR. LYNCH:

Have a great Christmas, Judge.

PIMA COUNTY SUPERIOR COURT

150

17

1

THE COURT:

Yeah.

Thanks, you guys.

2
3

* * * * * * * * *

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

PIMA COUNTY SUPERIOR COURT

151

18

1

C E R T I F I C A T E

2
3
4

STATE OF ARIZONA

5

COUNTY OF PIMA

)
) ss
)

6
7
8
9

I, Olivia Armenta, a Registered Professional

10

Reporter, in and for the State of Arizona, do hereby

11

certify that the foregoing transcript of the proceedings in

12

Pima County Superior Court is full, true and accurate to

13

the best of my knowledge, skill, and ability.

14
15

Signed and dated this 7th day of February, 2018.

16
17
18
19
20
21
22

/s/
____________________________________
Olivia Armenta, RPR
Certified Reporter #50411

23
24
25

PIMA COUNTY SUPERIOR COURT

152

